July 1, 2010

DOUG A. TULINO
VICE-PRESIDENT, LABOR RELATIONS

SUBJECT: Audit Report – Grievance Settlements and Payments
         (Report Number HR-AR-10-003)

This report presents the results of our audit of grievance settlements and payments
(Project Number 10YG004HM000). Our objective was to determine whether internal
controls over grievance settlements and payments were effective. Specifically, we
evaluated whether the grievance settlement decisions and payments were sufficiently
supported. We conducted this audit as a result of a referral received from our Office of
Investigations (OI). The audit addresses financial and operational risks. See Appendix A
for additional information about this audit.

Most Postal Service bargaining unit employees are represented by one of the four major
unions.1 The national agreements signed by senior-level management and the four
union presidents include grievance-arbitration procedures that Postal Service
management, bargaining unit employees (also referred to as craft employees), and
union representatives must follow. These procedures provide guidance for resolving
workplace disputes, differences, disagreements, and complaints. The Postal Service
pays millions of dollars in grievance settlements; in fiscal year (FY) 2008 and FY 2009
they paid $250 million and $179 million respectively. As a result, it is important to
ensure the Postal Service has appropriate internal controls in place.

Conclusion

Management controls over grievance settlements and disbursements need to be
strengthened. We found that grievance payments were often not supported by adequate
documentation and, as a result, we identified at least $27.8 million in unsupported
questioned costs. We also found that oversight of the grievance settlement process was
not consistent among the districts and that union representatives received grievance
payments to which they may not have been entitled. The weakness in the control
environment makes it difficult to determine the propriety of settlement amounts, and
payments to employees and union officials who represent bargaining unit employees.


1
 The four major unions are the American Postal Workers Union (APWU), the National Association of Letter Carriers
(NALC), the National Postal Mail Handlers Union (NPMHU), and the National Rural Letter Carriers’ Association
(NRLCA).
Grievance Settlements and Payments                                                   HR-AR-10-003



Management Controls over Grievance Payments

Documentation to Support Grievance Settlements and Payments

We reviewed 600 randomly selected grievances2 and found that 234 (or 39 percent)
were not adequately supported by required documentation. The missing documentation
included signed Grievance Arbitration Tracking System (GATS) decision letters that
document the reason for the settlement; the Grievance Form, which explains the
original grievance; and documentation that explains how management determined the
amount of the payment. As a result, there is no assurance that at least $27.8 million in
grievance settlement payments were justified or warranted. See Appendix C for our
calculation of unsupported questioned costs.

Human resources managers and labor relations officials at six of the 10 districts in our
sample stated that supervisors are not required to copy and maintain supporting
documentation used to settle informal grievances because they can settle them
verbally. Management at the remaining four districts stated the documentation was
missing due to poor recordkeeping by supervisors and individuals who prepared the
grievance payments.

The Postal Service requires management to maintain documentation supporting
grievance files and appeals for 7 years.3 In addition, the Government Accountability
Office (GAO) developed standards for internal controls.4 These standards require
agencies to assess the level of risk associated with specific activities and develop
internal controls to mitigate these risks. One internal control activity includes
documenting all transactions and other significant events and making the
documentation readily available. See Appendix B for our detailed analysis of this topic.

Inconsistent Oversight of Grievance Settlements

We identified inconsistencies in the oversight of grievance settlements among the
districts we reviewed. Specifically:

       Six of the 10 districts did not encourage or expect management representatives
        to seek higher-level consultation during the grievance process.

       Four of the 10 districts had not established dollar thresholds indicating when
        consultation or approval was required. Thresholds varied among the six districts
        that did have established thresholds.




2
  Management stated 300 of the grievances were informal adjustments.
3
  Employee and Labor Relations Manual 20, Appendix-Records Control Schedules, November 2009.
4
  GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal Government.




                                                     2
Grievance Settlements and Payments                                     HR-AR-10-003



There was no requirement or nationwide methodology for monitoring grievances
through GATS. District officials stated they each used one or more GATS reports, and
seven of the 10 stated they used one or more alerts in GATS to monitor settlement
amounts or prevalent issues.

We found that these inconsistencies existed, because supervisors are authorized to
settle grievances at any amount; and although some Postal Service managers had
implemented a consultation process, others believe oversight of grievances before
settlement and documentation of any consultation would violate union contracts.
Without consistent procedures and appropriate oversight, management has no
assurance that grievance settlements and disbursements are appropriate. According to
GAO, internal controls provide reasonable assurance that funds are safeguarded and
laws and regulations are complied with and support effective and efficient operations.
Without sufficient internal controls, the risk of fraud, waste, and abuse is high. See
Appendix B for our detailed analysis of this topic.

Payments to Union Representatives

We also found that union representatives received excessive payments from grievance
settlements. Union representatives in four districts (Colorado/Wyoming, Alabama, Mid-
America, and Capital) were involved with the allocation of class-action grievance
settlements for six grievances that resulted in union representatives receiving payments
that were significantly more than other members of the class. Specifically, union
representatives received $33,447 (or 24 percent) of $141,639 in settlements for these
six grievances. One union representative in the Mid-America District received as much
as 35 percent of a grievance settlement, while other payees received less than 1
percent.

This occurred because the Postal Service has not established procedures for reviewing
the allocation of settlements to ensure that payees whom the union identifies are part of
a class action. Once the Postal Service negotiates a settlement, they often have no
involvement with its allocation. As a result, union representatives may be receiving
payments to which they are not entitled.


We recommend the vice president, Labor Relations:

1. Develop and implement an internal control plan for grievance settlements and
   payments to ensure consistency among districts and compliance with contractual
   agreements. Such a plan should include, at a minimum:

      Requirements for maintaining adequate supporting documentation.

      Training for management who have the authority to resolve disputes in the
       grievance procedures.




                                            3
Grievance Settlements and Payments                                       HR-AR-10-003




      Requirements for periodically monitoring GATS reports and alerts.

      Procedures to ensure negotiated settlement payments are valid, accurate, and
       properly allocated among the grievants.

Management’s Comments

Management agreed with the recommendation, stating that they have already
implemented an internal control process in response to Sarbanes-Oxley (SOX)
requirements. Management stated that because GATS has already been designated as
a SOX compliant system, a periodic testing plan of its internal controls has been
established by the SOX program management office. The first test will occur in August
2010.

In addition, management stated they have already advised area Labor Relations
managers of the SOX testing and will issue more specific notification of upcoming SOX
testing by July 10, 2010, to the area human resources and Labor Relations managers.
The notification will detail the following: a checklist of documentation that should be
contained in a case file; instructions for using alerts in GATS to identify payout activity
and high dollar amounts; and recommendations for periodic review in individual units to
ensure that grievance settlements are valid, accurate, and properly allocated. In
response to training for management personnel who have the authority to resolve
disputes in grievance procedures, management stated they already have an extensive
list of training courses.

Management disagreed with several aspects of the report, including the conclusion that
grievance payments were often not supported by adequate documentation; and that
variations among local practices and processes should be classified as inconsistent.
Management also disagreed with the $27.8 million in unsupported questioned costs
identified in the report, stating that of the 600 cases sampled by the OIG, 300 or 50
percent were informal pay adjustments that do not require the same level of
documentation as formal grievances. They stated that the OIG failed to describe how
the calculations were extrapolated to determine the monetary benefits claimed.. In
addition, management indicated that the local union president who received 30 percent
of a settlement in the Colorado/Wyoming district was the primary emplolyee performing
the work. Management’s comments also included several points they wanted the OIG to
clarify. Management’s comments, in their entirety, are included in Appendix E.




                                             4
Grievance Settlements and Payments                                       HR-AR-10-003




Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
their corrective actions should resolve the issues identified in the report.

Regarding the 600 sampled cases we reviewed, we concluded that the Postal Service
made grievance payments for the GATS cases we reviewed, and there should have
been documentation to support all of those payments. For 234 of the payments we
reviewed, supporting documentation was missing. We also believe that supporting all
financial transactions, including informal grievance payments, with appropriate
documentation is a necessary internal control.

Management disagreed that variations among local practices and processes should be
classified as inconsistent. We based our conclusions on the fact that four of 10 districts
encouraged or expected managers to seek higher-level consultation, while the other
four districts did not. Because local officials stated supervisors are authorized to settle
grievances at any amount, we believe it is important that they use consistent practices
with regard to oversight and higher-level consultation for grievance settlements and
payments.

Regarding the union president in the Colorado/Wyoming district who received 30
percent of a grievance settlement; this was one example we found where a union official
received what seemed to be an excessive payment from a grievance settlement.
Western Area officials stated that APWU employees filed an unfair labor practices
complaint based on the amount the union president received in this case, and the case
was settled prior to the hearing for the amount paid to the union president.

We agreed with management’s statement that monitoring of GATS would not improve
the quality of supporting documentation. However, they can use the system to identify
unusual grievance settlements, and management can then take further action to ensure
the settlelment is appropriate and the required documentation is maintained.

Our estimate of the monetary impact is a statistical projection of $27.8 million of
unrecoverable unsupported questioned costs. We projected the cost at a 95 percent
confidence level based on grievance payments that were not supported by adequate
documentation. Because these payments were not supported, there is no assurance
that they were justified.

We made minor changes throughout the report as appropriate, to address
management’s clarification requests.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. The recommendation should not be closed in the




                                             5
Grievance Settlements and Payments                                     HR-AR-10-003



follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, director,
Human Capital and Security, or me at 703-248-2100.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Anthony J. Vegliante
    Laurie A. Hayden
    Sally K. Haring




                                            6
Grievance Settlements and Payments                                                           HR-AR-10-003



                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Most Postal Service bargaining unit employees are represented by one of the four major
unions. The national agreements signed by senior-level management and the four union
presidents include grievance-arbitration procedures that Postal Service management,
bargaining unit employees (also referred to as craft employees), and union
representatives must follow.5 These procedures provide guidance for resolving
workplace disputes, differences, disagreements, and complaints.

The grievance process generally consists of four steps.6 The first step requires
bargaining unit employee(s) and unions who feel aggrieved to discuss issues with their
immediate supervisor. The supervisor has authority to settle grievances at any time.
However, if a supervisor does not reach a resolution, the employee can file a formal
grievance through the union or the union can do so on its own initiative. The next three
steps involve formal discussions between Postal Service officials at the appropriate
level (local, regional, or national) and union representatives. The process also allows
the appeal of unresolved grievances to arbitration, during which a Postal Service and
union-selected arbitrator resolve the grievance through a binding decision. GATS tracks
the steps in the grievance-arbitration process.

The purpose of GATS is to track grievances. In addition, management uses GATS to
authorize and process grievance payments. It is a web-based system, accessed
through the Postal Service’s intranet. Most lump sum and hours-related grievance
adjustment payments for individual and class-action settlements are authorized through
GATS. In addition, GATS provides authorized users with reports and e-mail alerts that
can monitor payment activity.

The Postal Service pays millions of dollars in grievance settlements; in FY 2008 and FY
2009, they paid $250 million and $179 million respectively. Approximately 77 percent of
the payments were the result of arbitration decisions, $198 million in FY 2008 and $132
million in FY 2009. The remaining grievance settlements totaled more than $52 million
in FY 2008 and more than $47 million in FY 2009. 7




5
  Unio ns an d the b argaining unit (craft) emplo yees the y r epresent: the APW U repres ents clerks, motor vehic le
operators, building and equipment maintenance personnel, and vehicle maintenance personnel; the NALC represents
city delivery carriers; the NPHMU represents mail handlers; and the NRLCA represents rural delivery carriers.
6
  A grievance is defined as a dispute, difference, disagreement, or complaint between the parties related to wages,
hours, or conditions of employment.
7
  There were 94,485 grievance settlements during this period (45,596 in FY 2008 and 48,889 in FY 2009), not
including grievances settled in arbitration. We obtained grievance data from GATS.




                                                         7
Grievance Settlements and Payments                                                         HR-AR-10-003



OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether internal controls over grievance settlements
and payments were effective. Specifically, we evaluated whether the grievance
settlement decisions and disbursements made were supported.

To accomplish our objective, we selected a random sample of 600 grievance payments
for FYs 2008 and 2009. The total dollar value of the grievance payments we reviewed
was $375,608.26.8 These payments resulted from 140 different grievance types,
including 245 (approximately 41 percent) valued at $85,865.71 related to overtime
issues. Other grievance types resulting in a significant number of settlements and
payments included bargaining unit work (54 grievance payments totaling $10,432),
cross-craft violations (45 grievance payments totaling $20,019), and holiday pay (23
grievance payments totaling $9,598). The other 233 grievance payments we reviewed
resulted from numerous issues such as employment and work assignments, higher-
level pay, and light/limited duty. We also statistically projected the most common
grievance issues to all grievances settled in FYs 2008 and 2009 (see Appendix D).

To verify whether the grievance settlement decisions and payments were supported
with written documentation, we randomly selected 10 of the 80 Postal Service districts9
for review. This sample included 60 grievance payments from the 10 selected Postal
Service districts. In addition, we reviewed contracts between the Postal Service and the
four major unions and the ELM for any relevant information on the Postal Service’s
responsibilities related to grievance payments. We sent e-mails to each of the 10
districts requesting documentation to support grievance payments. We received
responses for all 600 grievance payments and reviewed supporting documentation for
each.

We contacted the districts and requested additional information pertaining to missing
documents or reasons they were unable to provide additional information. We also
requested the human resources manager at each of the selected districts to complete a
questionnaire so we could gain an understanding of the district’s grievance process. We
reviewed GATS payments to union representatives that exceeded $10,000 in FYs 2008
and 2009. We also reviewed a Pittsburgh arbitration award in which the Postal Service
was ordered to pay $69 million, which was split between nearly 1,500 postal workers.
Lastly, we made four referrals to OIG’s OI during the audit.

We conducted this performance audit from October 2009 through July 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our

8
  Based on our statistical sample, we projected our results regarding the 600 grievance payments we reviewed
across the universe. See Appendix C for additional information.
9
  On October 1, 2009 the Postal Service reduced the number of districts from 80 to 74.




                                                        8
Grievance Settlements and Payments                                   HR-AR-10-003



audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on April 13, 2010, and included their
comments where appropriate. Although we cannot attest to the accuracy of all data in
the GATS, we did not identify any errors in conducting our work and concluded that the
GATS data was reliable to support the audit findings.




                                           9
  Grievance Settlements and Payments                                             HR-AR-10-003



  PRIOR AUDIT COVERAGE

                                        Final
                    Report             Report          Monetary
Report Title        Number              Date            Impact Report                   Results
Grievance        HR-AR-10-001          3/8/2010        $1.67 million   The Baltimore District made
Overpayments                                                           grievance overpayments of
in the                                                                 approximately $1.7 million. The
Baltimore                                                              Postal Service agreed with our
District                                                               recommendations and has
                                                                       initiated action to recover these
                                                                       overpayments; however, we
                                                                       found that internal controls over
                                                                       disbursements of grievance
                                                                       payments were insufficient.




                                                  10
Grievance Settlements and Payments                                             HR-AR-10-003



                             APPENDIX B: DETAILED ANALYSIS

Management Controls Over Grievance Payments

Documentation to Support Grievance Settlements and Payments

Management controls over grievance settlements and disbursements need to be
strengthened. Specifically, grievance payments were often not supported with adequate
documentation.

In our review of 600 randomly selected grievances, we found 234 (or 39 percent) were
not adequately supported by required documentation. Items missing included signed
GATS decision letters (explanation of the reasoning for the grievance settlement), the
grievance forms (an explanation of the original grievance), and explanations of how the
amount of the payments were determined. Postal Service officials gave the following
reasons for missing documentation: poor recordkeeping, local installations not
forwarding information, and management verbally settling informal grievances, which
does not require maintaining documentation. See the following table for an overview of
our results by district.

                    Grievance File Review – Results by District

                                                         Supporting            Supporting
                                 No Supporting
                    Sample                             Documentation          Documentation
                                 Documentation
      District                                            Missing               Included
                    Dollar                Dollar                Dollar                Dollar
                                Number                Number                Number
                    Value                 Value                 Value                 Value
    Bay Valley      $45,259          5    $1,715        13     $17,802           42     $25,741
    Big Sky          22,958          1       120        11       2,486           48      20,352
    Capital 41,581                   8     1,991        28       4,397           24      35,193
    Colorado/
                     19,258 5               322          8          1,714        47      17,222
    Wyoming
    Connecticut 25,799               19    5,082        14      10,778           27       9,939
    Mid-America 65,918                0        0        13      41,665           47      24,253
    Northern
                    102,467 1               111         23      83,372           36      18,985
    Virginia
    Northland 22,418                 0         0        29 14,039                31       8,379
    Sierra
                     12,077 1                85         29          7,620        30       4,372
    Coastal
    South
                     17,873 2                57         24          6,443        34      11,374
    Florida
    Totals $375,6         08      42       $9,483      192     $190,316         366    $175,810




                                                 11
Grievance Settlements and Payments                                                     HR-AR-10-003



Some examples of grievance settlements with incomplete documentation included:

          A step 3 level grievance was settled by a headquarters labor relations specialist
           for $33,750 in the Mid-America District. District personnel could not locate the
           original grievance form or a signed decision letter. They attributed this to poor
           recordkeeping.

          A step 2 level grievance was settled by a district labor relations specialist for
           $41,490 in the Northern Virginia District. Local management was unable to
           provide the original grievance form and support for the hours used to calculate
           the payment.

Documentation was incomplete because managers were not consistently applying
policies and procedures regarding documentation to support grievance settlements and
payments. Human resources managers in six districts believed supervisors were not
required to copy and maintain supporting documentation used to settle informal
grievances, because they can be settled verbally. However, managers in the other four
districts believed the lack of documentation was due to poor recordkeeping by
supervisors and the persons who prepared the grievance payments. The Postal Service
requires documentation supporting grievance settlements to be maintained for 7
years.10 This documentation includes notices of disciplinary action, standard grievance
forms, statements of fact, statements of witnesses and supervisors, copies of
supporting records from other Postal Service files, and summaries and decisions.
Because these documents were missing from 39 percent of the grievance files we
reviewed, we concluded there is no assurance that at least $27.8 million in grievance
payments were justified or warranted.

Inconsistent Oversight of Grievance Settlements

Oversight of the grievance settlement process was inconsistent among the districts we
selected for review. Based on the district office responses, we noted that supervisors
had the authority to settle grievances at any dollar amounts. However, four of the 10
districts encouraged or expected management representatives to seek higher-level
consultation, while six had no expectation for supervisors to consult with someone
internally before settling a grievance. In addition, six of the 10 districts had various dollar
thresholds for which consultation was required. For example;

          The Northern Virginia District requires individuals to consult with the labor
           relations manager for settlements in excess of $1,000; consult the human
           resources manager for settlements in excess of $5,000; and consult the district
           or plant manager for settlements in excess of $10,000.




10
     Employee and Labor Relations Manual 20, Appendix-Records Control Schedules, November 2009.




                                                       12
Grievance Settlements and Payments                                        HR-AR-10-003



          The Bay Valley and Sierra Coastal districts have guidance from the Pacific Area
           office that limits to $500 the maximum grievance payment that may be authorized
           for executive and administrative schedule managers and supervisors without
           consultation; $500 and $1,000 for postmasters; $10,000 for the human resources
           manager; and $50,000 for postal career executive service employees.

          The Big Sky District requires consultation on any amount over $500 for informal
           grievances and any amount over $1,000 for step 2 formal grievances. Four
           districts had no limit on the payments that could be made at any level.

We also noted that all of the districts used one or more GATS reports for monitoring
settlement amounts or prevalent issues and seven of them responded that they used
one or more GATS alerts to monitor grievance settlements. However, this information is
input into the GATS system after the grievance has been settled, and there is no
requirement for periodic reviews of GATS to monitor grievance settlement and payment
information.

Some Postal Service officials responded that approval or oversight of grievance
settlements and documentation of any consultation would violate union contracts.
However, our review of the contracts found that they require both the Postal Service
and union representative hearing a grievance to have the authority to make a
settlement, but the contracts do not prohibit supervisors from seeking consultation.
Without sufficient internal controls, the risk of fraud, waste, and abuse is high.

Payments to Union Representatives

We noted during our audit that union representatives received excessive payments
resulting from grievance settlements. Union representatives at four districts
                                                             were involved with
allocating class-action grievance settlements for six grievances that resulted in union
representatives receiving a significant percentage of the settlement amounts, while the
grievants received very small percentages of the settlement amounts. A union
representative in the                      received as much as 35 percent of one
grievance settlement, while other payees received less than 1 percent. For the
grievances we reviewed, union representatives received $33,447 (or 24 percent) of
$141,639 in settlements for these six grievances. The following items describe the
individual examples of union representatives receiving more than most of the grievants.

          In the                           , a class-action grievance paid the local
           American Postal Workers Union president $16,934 (or 30 percent) of the total
           settlement of $56,448, which was more than the amount most other grievants
           received. The grievance was settled through arbitration. To abide by the
           settlement, two local unions and the postmaster negotiated a total settlement

11
     The Alabama location was part of our survey phase.




                                                          13
Grievance Settlements and Payments                                     HR-AR-10-003



       amount. Once the amount was determined, the union president decided who to
       include in the settlement and how much each grievant would be paid. The local
       union president allocated 30 percent of the total settlement ($16,934) to himself.
       In addition to the president, there were eight other grievants. Four grievants
       received $1,128.96 each (or 2 percent); two grievants received $5,644.80 each
       (or 10 percent), and one received $22,579.20 (or 40 percent). One grievant filed
       an unfair labor practice complaint based on allocation of the payment. The union
       settled the case out of court for the amount paid to the local union president,
       according to Western area officials.

      In the                  in FY 2009, we found the local union president received
       $9,000 from two class-action payment settlements. He received $4,000 of a
       $25,000 settlement and $5,000 of $30,000 settlement for union expenses. The
       Postal Service’s Labor Relations team settled this grievance at a significant
       discount for the Postal Service, but the union also allocated the payments,
       including the payment of union expenses to the local president.

      In the                      a local union president received $5,850 (or 35
       percent) of a $16,928.73 settlement. . The person most affected by the contract
       violation received $2,000.73 and 67 other individuals received between $110 and
       $1,000 each.

      In the                  we noted a union steward named in two class-action
       grievances received the highest payments — $805.46 (or 18 percent) of a total
       settlement of $4,457.32 for 25 grievants and $857.56 (or 10 percent) of a total
       settlement of $8,805.28 for 34 grievants. For one of the grievances, he received
       almost twice the amount of the next highest payee. We determined that, although
       the Postal Service calculated the settlement, it was the union steward who
       identified the individuals eligible to receive payment based on his knowledge of
       who was available for overtime and the documentation provide to the dispute
       resolution team (DRT). The DRT settled the grievance but did not receive any
       additional information from local management to dispute the union’s information,
       so there is no way to know whether the allocation was distributed accurately.

The Postal Service has no procedures in place to review the allocation of settlements
and ensure the payees identified by the union are part of the class action. Once the
Postal Service negotiates a settlement they often have no involvement with its
allocation. Union representatives may be receiving unwarranted payments by filing
grievances and potentially violating fair labor practices with regard to Postal Service
employees.




                                            14
Grievance Settlements and Payments                                                           HR-AR-10-003



                                 APPENDIX C: MONETARY IMPACT

We sampled grievance settlements paid in FYs 2008 and 2009 and excluded grievance
settlements listed as arbitration settlements in the GATS. The total dollar value of our
universe was $99,890,427: $52,874,599 in FY 2008 and $47,015,828 in FY 2009 for the
80 Postal Service districts. Based on the results of our two-staged sampling
methodologies, we are 95 percent confident that the monetary impact resulting from
unsupported grievance payments is at least $27,782,853.

                Finding Impact                Category                                          Amount
     Internal Controls Over     Unrecoverable Unsupported                                      $27,782,853
     Grievance Payments Need To Questioned Costs12
     Be Improved

                          TOTAL                                                                $27,782,853




12
   Questioned costs are costs that are unnecessary, unreasonable, unsupported, or an alleged violation of law,
regulation, etc. Unsupported costs are costs that are questioned, because they are not supported by adequate
documentation. We statistically projected at least $27.8 million of unrecoverable unsupported questioned costs due to
missing documentation that supports grievance payments.




                                                         15
Grievance Settlements and Payments                                                            HR-AR-10-003



                            APPENDIX D: PROJECT GRIEVANCE ISSUES13

     Using the sample discussed in Appendix C, we did an attribute appraisal of the
     issues that resulted in grievance settlements to identify frequently occurring causes.
     We developed a point estimate with a 95 percent confidence level for each issue
     that occurred 10 times or more in our sample. We combined the remaining issues in
     the other issues category. The table below is our projection of the makeup of all
     grievances settled in FYs 2008 and 2009.14

              Category                                                 Proportion15
              Overtime Assignment                                          11.91%
              Overtime Work                                                13.20%
              Performance of Bargaining
                                                                           7.55%
              Unit Work16
              Cross Craft Assignment                                       6.20%
              Employees Not on Overtime
                                                                           6.29%
              List
              Hours of Work                                                   4%
              Article 8 Overtime                                           6.64%
              No Issue Available                                           3.13%
              Equitable Distribution of
                                                                           2.47%
              Overtime
              Grievance-Arbitration
                                                                           2.23%
              Procedure
              Prohibition of Unilateral
                                                                           1.37%
              Action17
              Other Issues18                                               35.02%




13
   This information was requested by a senior Postal Service official.
14
   There were 94,485 grievance settlements during this period (45,596 in FY 2008 and 48,889 in FY 2009), not
including grievances settled in arbitration.
15
   Relative precision ranges from 1.12 percent to 7.04 percent. We could not estimate corresponding estimated dollar
proportions with reasonable precision.
16
   Supervisors and non-union employees are prohibited from performing certain bargaining unit work (work that
belongs to the union employees).
17
   Under Article 5 of the collective bargaining agreement, management is prohibited from taking any unilateral actions
inconsistent with the terms of the existing agreement or its obligation under the law.
18
   There were a total of 140 different grievance issues in the 600 grievances reviewed. Other issues include issues
such as back pay; disciplinary actions; holiday scheduling and pay; and union rights.




                                                         16
Grievance Settlements and Payments                           HR-AR-10-003



                         APPENDIX E: MANAGEMENT’S COMMENTS




                                       17
Grievance Settlements and Payments        HR-AR-10-003




                                     18
Grievance Settlements and Payments        HR-AR-10-003




                                     19
Grievance Settlements and Payments        HR-AR-10-003




                                     20
Grievance Settlements and Payments        HR-AR-10-003




                                     21
Grievance Settlements and Payments        HR-AR-10-003




                                     22
Grievance Settlements and Payments        HR-AR-10-003




                                     23
Grievance Settlements and Payments        HR-AR-10-003




                                     24
